                       AUDIT REPORT

      Audit of NRC’s Inspections, Tests, Analyses, and
            Acceptance Criteria (ITAAC) Process


                   OIG-12-A-16         July 12, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                                  July 12, 2012



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S INSPECTIONS, TESTS, ANALYSES,
                            AND ACCEPTANCE CRITERIA (ITAAC) PROCESS
                            (OIG-12-A-16)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process. The audit
objective was to assess NRC’s regulatory approach, through the ITAAC review process,
to ensure that new nuclear power plants have been constructed and will be operated in
conformity with the license, the provisions of the Atomic Energy Act, and the
Commission’s rules and regulations.

OIG met with NRC management officials and staff on May 22, 2012, at which time the
agency provided informal comments to the draft report. OIG subsequently met with
agency management and staff during a May 31, 2012, exit conference to discuss
agency informal comments that OIG incorporated into the draft report as appropriate.
NRC management and staff reviewed the revised draft report and generally agreed with
the recommendations in this report. Furthermore, the agency opted not to provide
formal comments for inclusion in this report.

OIG identified opportunities to improve the agency’s ITAAC process to include
strengthening guidance, enhancing training procedures, improving oversight of
construction tracking systems, developing a strategy for inspections at modular assembly
facilities, and improving change management and communication/coordination practices
between headquarters and Region II. The report contains recommendations intended to
improve NRC’s ITAAC process.
If you have any questions, please contact me, at 415-5915 or RK Wild, Team Leader, at
415-5948.

Attachments: As stated

cc:   N. Mamish, OEDO
      J. Arildsen, OEDO
      K. Brock, OEDO
      C. Jaegers, OEDO
                       Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



EXECUTIVE SUMMARY

BACKGROUND

    The next generation of nuclear power plants will be built under combined
    construction permit and operating licenses (COL) that reference designs that are
    certified by the Nuclear Regulatory Commission (NRC). The Office of New
    Reactors (NRO) is the lead organization for licensing new reactors and overseeing
    their construction.

    A COL is issued under Title 10, Code of Federal Regulations (10 CFR), Part 52, a
    process that combines the construction permit and operating license. NRC, in
    conjunction with industry, designed the Inspections, Tests, Analyses, and
    Acceptance Criteria (ITAAC) process to verify conformance with the COL as
    construction proceeds. ITAAC are a design-specific, pre-approved set of
    performance standards, grouped into families, which the licensee must meet to
    NRC's satisfaction. Families are composed of ITAAC that are related through
    similar construction processes, resulting products, and general inspection
    attributes.

    NRC conducts performance-based inspections throughout the construction period
    on a sample of ITAAC completed by the licensee to verify that they have been
    appropriately completed. Once the licensee determines that the acceptance criteria
    have been met for a particular ITAAC, it informs NRC by submitting an ITAAC
    closure notification to NRC for review. Not less than 180 days before the scheduled
    date for initial fuel load, the Commission will publish a Federal Register Notice of
    intended operation, which provides a 60-day period for the public to request a
    hearing on whether the facility as constructed complies, or on completion will
    comply, with the acceptance criteria in the COL. Pending no outstanding issues,
    the Commission is then expected to make an affirmative finding in accordance with
    10 CFR 52.103(g) that the acceptance criteria in the COL are met to allow the new
    reactor to begin operating.

    ITAAC inspections are performed primarily by the Center for Construction
    Inspection in Region II. Other Region II construction inspectors and NRC
    headquarters technical staff will participate in the inspection and oversight activities
    to better ensure that the facility conforms to the conditions of the COL.
    NRC vendor inspections are also performed as part of the ITAAC inspection
    process, in particular because a key characteristic of the current approach to new
    reactor construction is the use of modular assemblies, which are constructed offsite

                                                i
                       Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



     and shipped to the construction site for installation. Interdependence between the
     ITAAC and vendor inspection programs is an important aspect of NRC’s role in
     assuring that components destined for modular assemblies that will go into new
     reactors are manufactured to appropriate safety and regulatory standards. ITAAC
     inspection results will be recorded in an NRC-created and maintained electronic
     database referred to as the Construction Inspection Program Information
     Management System (CIPIMS).


OBJECTIVE

     The audit objective was to assess NRC’s regulatory approach, through the ITAAC
     review process, to ensure that new nuclear power plants have been constructed
     and will be operated in conformity with the license, the provisions of the Atomic
     Energy Act, and the Commission’s rules and regulations.


RESULTS IN BRIEF

     The agency established NRO in 2006 to oversee the regulatory activities
     associated with new reactor licensing under 10 CFR Part 52. To date, NRO staff
     have taken significant steps to employ a formalized approach for reviewing new
     reactor construction, such as implementing the ITAAC closure process. Staff have
     continued to strengthen the ITAAC closure process by developing and revising
     guidance and inspection procedures, creating a database tracking system, and
     working to identify and remedy issues associated with the ITAAC process. The
     Office of the Inspector General (OIG) identified opportunities to further improve
     aspects of the ITAAC process. The ITAAC process could benefit by NRC taking
     the following actions:

                         Strengthening guidance would enhance staff understanding of
                         ITAAC requirements.
                         Designing ITAAC training programs through formalized training
                         needs assessments would ensure the staff is receiving
                         appropriate and useful training.
                         Increasing oversight of CIPIMS development would help
                         ensure:
                             Development costs are tracked.
                             Efficient development and implementation of future
                               iterations of the system.


                                                ii
                      Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                        Formalizing a strategy for inspection of components at modular
                        assembly facilities would strengthen the ITAAC inspection
                        program.
                        Improving change management and communication/coordination
                        practices between headquarters and Region II.


RECOMMENDATIONS

    This report makes recommendations to improve the agency’s ITAAC process. A
    consolidated list of these recommendations appears in Section IV of this report.


AGENCY COMMENTS

    On May 9, 2012, OIG issued the discussion draft of this report to the Executive
    Director for Operations. OIG met with NRC management officials and staff on May
    22, 2012, at which time the agency provided informal comments to the draft report.
    OIG subsequently met with agency management and staff during a May 30, 2012,
    exit conference to discuss agency informal comments that OIG incorporated into
    the draft report as appropriate. NRC management and staff reviewed the revised
    draft report and generally agreed with the recommendations in this report.
    Furthermore, the agency opted not to provide formal comments for inclusion in this
    report.




                                              iii
                        Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ v

        I.     BACKGROUND ................................................................................. 1

        II.    OBJECTIVE ...................................................................................... 6

        III.   FINDINGS.......................................................................................... 6

                        A. Strengthening Guidance Would Enhance Staff
                           Understanding of ITAAC Requirements............................. 7

                        B. Development and Implementation of CIPIMS Has
                           Been Delayed .................................................................. 14

                        C. A Formal Strategy for Inspection of Components at
                           Modular Assembly Facilities Would Strengthen
                           the ITAAC Inspection Program ........................................ 23

                        D. Coordination Between Headquarters and Region II
                           Could Be Improved .......................................................... 29

        IV.    CONSOLIDATED LIST OF RECOMMENDATIONS ........................ 34

        V.     AGENCY COMMENTS .................................................................... 35



        APPENDICES

               A. EXAMPLE OF TIER 1 PROJECT MANAGEMENT
                  METHODOLOGY ARTIFACTS ................................................. 36

               B. EXAMPLES OF ITAAC ............................................................. 37

               C. OBJECTIVE, SCOPE, AND METHODOLOGY ......................... 38



                                                    iv
                Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



ABBREVIATIONS AND ACRONYMS

       ASME       American Society of Mechanical Engineers

       CFR        Code of Federal Regulations

       CIPIMS     Construction Inspection Program Information Management
                  System

       COL        Combined Construction Permit and Operating License

       ITAAC      Inspections, Tests, Analyses, and Acceptance Criteria

       NRC        Nuclear Regulatory Commission

       NRO        Office of New Reactors

       OIG        Office of the Inspector General

       OIS        Office of Information Services

       OPM        Office of Personnel Management




                                        v
                            Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



I.      BACKGROUND

                The next generation of nuclear power plants will be built under combined
                construction permit and operating licenses (COL) that reference designs
                that are certified by the Nuclear Regulatory Commission (NRC). The Office
                of New Reactors (NRO) is the lead organization for licensing new reactors
                and overseeing their construction. In fiscal year 2012, NRC allocated 924
                full-time equivalents to new reactor activities and expenditures totaling
                $265.4 million.

                In contrast to past licensing procedures under Title 10, Code of Federal
                Regulations (10 CFR) Part 50,1 a COL is issued under 10 CFR Part 52.
                With Part 52, NRC established a process of combining the construction
                permit and operating license in order to eliminate unnecessary construction
                or startup delays caused by preoperational licensing or litigation. 10 CFR
                Part 52 requires resolution of design and siting issues before the start of
                construction under a COL and continued NRC and licensee attention to
                assuring compliance with the COL during construction. The intent behind
                Part 52 is to provide a more efficient and systematic approach to
                construction and NRC oversight (see Figure 1).

                To achieve this purpose, NRC, in conjunction with industry, designed the
                Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) process to
                verify conformance with the COL as construction proceeds.




1
  Under 10 CFR Part 50, new reactor licensing is a two-stage process. Under this process, NRC would
issue a prospective licensee with a construction permit, allowing them to begin construction immediately.
During construction, NRC would inspect construction activities and determine whether or not to approve an
operating license when the reactor was completed.

                                                     1
                              Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                  Figure 1: 10 CFR Part 52 Reactor Licensing Schematic




                      Early Site                        Combined
                      Permits                           License
                                                        Review and            Verification of Inspection,
                                                        Hearing               Tests, Analyses, and
                                                                              Acceptance Criteria




                                                                                                    Reactor
                                                    Reactor
                     Design                                                                         Operation
                                                    Construction
                     Certifications




                   Source: NRC



                  Inspections, Tests, Analyses, and Acceptance Criteria

                  ITAAC are a design-specific, pre-approved set of performance standards
                  that the licensee must meet to NRC's satisfaction.2 Through direct
                  inspections and other methods, NRC must confirm that the licensee has
                  met these performance standards, as set forth in the COL, before allowing
                  the licensee to begin initial plant startup and operation. A typical new
                  reactor design, such as the AP1000, has approximately 700 to 1,500
                  ITAAC that are grouped into families that are prepared and performed by
                  the licensee during and after the construction process. The families are
                  composed of ITAAC that are related through similar construction
                  processes, resulting products, and general inspection attributes. NRC
                  conducts performance-based inspections throughout the construction
                  period on a sample of ITAAC conducted by the licensee to verify that they
                  have been appropriately completed. Once the licensee determines that the
                  acceptance criteria have been met for a particular ITAAC, it informs NRC

2
    That is, demonstrate that a plant has been constructed as-designed and licensed.

                                                       2
                              Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                by submitting an ITAAC closure notification for review. Not less than 180
                days before the scheduled date for initial fuel load, the Commission will
                publish a Federal Register Notice of intended operation, which provides a
                60-day period for the public to request a hearing on whether the facility as
                constructed complies, or on completion will comply, with the acceptance
                criteria in the COL. Pending no outstanding issues, the Commission is
                expected to make an affirmative finding in accordance with 10 CFR
                52.103(g) that the acceptance criteria in the COL are met to allow the new
                reactor to begin operating.3 The overall licensing/construction process
                under 10 CFR Part 52 is depicted in Figure 2.

                Figure 2: 10 CFR Part 52 Process Flow


                    Part 52 - Fitting the Pieces Together

                                  LWA                                 COL Issued                103(g) finding



                           Early Site
                            Permit
                                                    Combined
                                                     License                           Verification of
                           Standard                  Review,                           Construction            Load Fuel
                            Design                  Hearing,                            with ITAAC
                          Certification                and
                                                    Decision
                           Standard
                            Design
                           Approval


                         Manufacturing
                           License                       Pre-Construction          Construction


                                                                                                  Optional Hearing
                                                               Mandatory Hearing
                            Public                                                                on ITAAC
                            Involvement                                                           completion
                            Opportunity                                                                              2


                Note: LWA is the abbreviation for Limited Work Authorization.
                Source: NRC




3
 A 10 CFR 52.103(g) finding is made by the Commission after the licensee closes all ITAAC, and the staff
determines that all acceptance criteria are met. An affirmative finding by the Commission is required to
authorize fuel load by the licensee. After an affirmative 52.103(g) finding, ITAAC cease to have regulatory
standing and technical specifications take over.

                                                        3
                           Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



               Construction Inspection Program

               ITAAC inspections are performed under the construction inspection
               program in accordance with Inspection Manual Chapters 2503,
               Construction Inspection Program: Inspections of Inspections, Tests,
               Analyses, and Acceptance Criteria, and 2504, Construction Inspection
               Program—Inspection of Construction and Operational Programs, as well as
               other internal guidance documents, including those referred to by NRC
               staff as Strategy Documents. The construction inspection program was
               developed by the Division of Construction Inspection and Operational
               Programs in NRO and is being implemented primarily by the Center for
               Construction Inspection in Region II. The Region II construction resident
               inspectors are assigned to a new reactor site during the period prior to COL
               issuance to oversee the daily activities of the licensee and its contractors.
               Other Region II construction inspectors and NRC headquarters technical
               staff will participate in the inspection and oversight activities to better
               ensure that the facility conforms to the conditions of the COL.

               Vendor Inspection Program

               The NRC vendor inspection program consists of vendor quality assurance
               inspections to ensure that products and services provided by
               manufacturers for United States-based reactors meet regulatory
               requirements. This is particularly important considering that a key
               characteristic of the current approach to new reactor construction is the use
               of modular assemblies, which are constructed offsite and shipped to the
               construction site for installation. Thus, the ITAAC process is not limited to
               onsite inspections of construction, but can include NRC inspections at
               vendor locations in foreign countries as well as at modular assembly
               facilities. Consequently, the interdependence between the ITAAC and
               vendor inspection programs is an important aspect of NRC’s role in
               assuring that components destined for modular assemblies that will go into
               new reactors are manufactured to appropriate safety and regulatory
               standards.4




4
  For more on the activities of the vendor inspection program, see OIG-10-A-20, Audit of NRC’s Vendor
Inspection Program, September 28, 2010.


                                                    4
                             Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                Construction Inspection Program Information Management System

                ITAAC inspection results will be recorded in an NRC-created and
                maintained electronic database referred to as the Construction Inspection
                Program Information Management System (CIPIMS). During the previous
                period of nuclear power plant construction, there were a number of
                problems with NRC oversight.5 NRC conducted evaluations subsequent to
                the first generation of nuclear power plant construction which identified the
                need to strengthen NRC oversight of the construction process—in
                particular, the need to enhance construction inspection oversight programs.
                To that end, CIPIMS is intended to help plan inspections, and organize,
                manage, and generate inspection reports on information pertaining to (1)
                the ITAAC description, status, and closeout process; (2) inspection
                observation and tracking; (3) inspection report generation; and (4)
                assessment information. Information contained in CIPIMS will be used by
                headquarters in the review of ITAAC closure notices as well as by the
                Center for Construction Inspection to determine inspection completion.




5
  During the 1970s and 1980s, NRC and its predecessor, the Atomic Energy Commission, oversaw the
industry’s construction of the first generation of U.S. nuclear plants. Several of the construction projects
experienced significant problems related to design and construction quality resulting in the cancellation of
several plants in various stages of construction. See OIG-09-A-17, Audit of NRC’s Oversight of
Construction at New Nuclear Facilities, September 29, 2009.

                                                      5
                     Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



II.    OBJECTIVE

           The audit objective was to assess NRC’s regulatory approach, through the
           ITAAC review process, to ensure that new nuclear power plants have been
           constructed and will be operated in conformity with the license, the
           provisions of the Atomic Energy Act, and the Commission’s rules and
           regulations. Appendix C of this report contains information on the audit
           scope and methodology.




III.   FINDINGS

           The agency established NRO in 2006 to oversee the regulatory activities
           associated with new reactor licensing under 10 CFR Part 52. To date,
           NRO staff have taken significant steps to employ a formalized approach for
           reviewing new reactor construction, such as implementing the ITAAC
           closure process. Staff have continued to strengthen the ITAAC closure
           process by developing and revising guidance and inspection procedures,
           creating a database tracking system, and working to identify and remedy
           issues associated with the ITAAC process.

           However, OIG has identified opportunities to further improve aspects of the
           ITAAC process. The ITAAC process could benefit by NRC taking the
           following actions:

                         Strengthening guidance would enhance staff understanding
                         of ITAAC requirements.
                         Designing ITAAC training programs through formalized
                         training needs assessments would ensure the staff is
                         receiving appropriate and useful training.
                         Increasing oversight of CIPIMS development would help
                         ensure:
                              Development costs are tracked.
                              Efficient development and implementation of future
                                iterations of the system.




                                              6
                            Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                                Formalizing a strategy for inspection of components at
                                modular assembly facilities would strengthen the ITAAC
                                inspection program.
                                Improving change management and
                                communication/coordination practices between headquarters
                                and Region II.


        A.      STRENGTHENING GUIDANCE WOULD ENHANCE STAFF
                UNDERSTANDING OF ITAAC REQUIREMENTS

                NRC staff have an inconsistent understanding of existing ITAAC guidance
                and procedures. This has occurred because current programmatic
                guidance and procedures lack clarity, and training is improvised.
                Consequently, NRC may not be able to ensure that new nuclear power
                plants have been constructed and will be operated in conformity with the
                license, the provisions of the Atomic Energy Act, and the Commission’s
                rules and regulations.

                Importance of Clear Understanding of Guidance

                NRC’s strategic guidance and procedures emphasize the importance of
                regulatory consistency and staff understanding of processes and
                procedures. NRC’s current Strategic Plan, for example, emphasizes
                regulatory consistency. Regulatory consistency includes the use of
                guidance and procedures to guide implementation of a new program, such
                as ITAAC. Consistent staff understanding of programmatic guidance and
                procedures is important for program success.

                Staff Have an Inconsistent Understanding of ITAAC Guidance and
                Procedures

                NRC staff do not uniformly understand how they should apply select
                guidance documents and procedures that describe the ITAAC inspection
                and closure process. This guidance includes the Strategy Documents6 and
                relevant inspection guidance documents to help focus resources and
                identify ITAAC attributes for inspection. NRO also has a draft Office
                Instruction to assist staff during the ITAAC closure review process. Among

6
  For a brief description of Strategy Documents, see the text box entitled ―The ITAAC Strategy Documents‖
in the next section of this report.

                                                     7
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



other things, the draft Office Instruction includes identification of the
relevant program offices as well as a checklist to guide reviewers during
the notification closure process. Nonetheless, there are varying staff
perspectives on what constitutes a sufficient review for ITAAC closure.
Specifically, OIG identified staff difficulties in understanding:

              The use of the Strategy Documents,
              The procedures for selecting non-targeted ITAAC for
              inspection, and
              The ITAAC closure notification review procedures.

Staff Understanding of                 The ITAAC Strategy Documents
Strategy Documents Is
                                       The Strategy Documents were developed beginning in
Inconsistent                           2006 by NRC staff for use by regional managers and
                                       inspection staff to prepare inspections of reactors
NRC staff do not uniformly             under construction. Each Strategy Document is related
                                       to a specific ITAAC family in a given reactor type, such
understand the purpose                 as the AP1000 series. Among other things, these
and application of the                 documents provide examples of ITAAC families subject
                                       to inspection, references to appropriate inspection
ITAAC Strategy                         guidance documents, and descriptions of relevant
Documents (see text box,               structures, systems and components related to a given
―The ITAAC Strategy                    ITAAC family.
Documents‖), and have also expressed concerns as to whether the
documents are kept up-to-date. During discussions with OIG, staff cited
concerns regarding the purpose and utility of the Strategy Documents. For
example, some staff stated that the documents were ―high level‖ guidance
to be used with Inspection Manual Chapters, a characterization at odds
with their description as pre-inspection planning documents, as articulated
to
OIG by regional staff. One NRC manager noted that the process of how to
use the documents was ―evolving.‖ Further, some staff indicated that some
of the documents are out of date and may not contain the latest technical
information. Specifically, some NRO staff who might be expected to
provide technical input into the Strategy Documents stated that their views
were not being taken into consideration and it was difficult for them to
communicate their concerns.




                                   8
            Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



Staff Inconsistently Understand the Process for Inspection of Non-Targeted
ITAAC

Region II and NRO staff have differing perspectives on how to inspect non-
targeted ITAAC (see text box, ―Targeted and Non-Targeted ITAAC‖). A
senior Region II staff member said that any ITAAC not meeting the
selection criteria for targeted ITAAC should be potentially suitable for
inspection. ITAAC technical consultants have asserted that a structured
approach should be
                                   Targeted and Non-Targeted ITAAC
taken to selecting non-
targeted ITAAC for                 As part of the ITAAC inspection process, targeted
inspection, ranking the            ITAAC are identified through a ranking
                                   methodology. ITAAC are first reviewed for safety
below-threshold ITAAC              significance in conjunction with a probabilistic risk
in a systematic fashion.           assessment. Then, all ITAAC are assigned a
However, according to              numerical value based on safety significance and a
                                   number of other factors, which is their ―value of
one senior regional staff          inspection.‖ All ITAAC that meet a certain selection
member, Region II staff            criteria are then identified as ―targeted,‖ and will be
                                   inspected during the construction process. Other
consider a more random             ITAAC that fall below the threshold are designated
approach to ITAAC                  as ―non-targeted,‖ but could still be subject to some
inspection selection to            level of inspection.
be appropriate. For
example, one staff member expressed concern that the existing, structured
approach articulated by headquarters does not allow enough latitude on
the part of inspectors to look at non-targeted ITAAC. The staff member
also noted that having too rigid a methodological approach could lead to
the potential for predictability in inspections of non-targeted ITAAC.
Specifically, employing a rigid methodological approach could allow for
licensees to pre-determine which non-targeted ITAAC would be inspected
by NRC.




                                     9
           Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



ITAAC Closure Notification Review Procedures Are Not Well Understood

Some NRC staff do not
fully understand some                The Closure Review Process

aspects of the ITAAC                 When an ITAAC is completed by the licensee, an
closure notification review          ITAAC Closure Notice is submitted to NRO for a
                                     review. This review includes (1) verification of
process (see text box,               ITAAC closure notifications, as submitted by the
―The Closure Review                  licensee, and (2) instructions for reevaluation and
Process‖). To facilitate             opening of a closed ITAAC (if needed).
this process, NRO has
developed a draft Office Instruction titled, ―ITAAC Closure Verification
Process,‖ to provide guidance to staff. However, NRO is presently
reevaluating the draft Office Instruction based on management and
regional staff concerns regarding the validity of some of the guidance
criteria. These concerns include:
           The ―2-4 hour‖ time frame cited in the draft guidance for the
           review of closure notices.
           The lack of specification in describing the roles and
           responsibilities of the various staff who might be involved in a
           closure review.

Programmatic Guidance Lacks Clarity and Training Is Improvised

There are two predominant factors contributing to NRC staff confusion
regarding the ITAAC guidance and procedures: (1) a lack of specificity and
clarity in the associated program guidance, and (2) the agency’s
improvised approach to training program staff on the ITAAC process.

Guidance Documents Are Unclear

ITAAC program guidance is unclear, which has led to inconsistent staff
understanding of ITAAC guidance. OIG found some key areas, beginning
with pre-inspection planning up through the ITAAC closure notification
reviews, where existing guidance was unclear. Specifically:

Strategy Documents
There is currently no formal guidance regarding the use and maintenance
of Strategy Documents. Although these documents are a key part of pre-
inspection planning, they are currently monitored and updated by a primary
point of contact, with input and updates occurring in an informal fashion. In


                                    10
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



turn, regional and headquarters staff who could be providing useful input
are not being consistently included in the revision process.

NRO’s Draft Office Instruction
        Justification for the ―2-4 hour‖ time estimates for closure notice
        reviews provided in the draft Office Instruction have not been
        communicated to staff. During several discussions with NRC
        staff there was no consistent understanding for why ―2-4 hours‖
        was chosen.
        The draft Office Instruction is ambiguous regarding the specific
        regional and headquarters staff roles and responsibilities
        associated with the closure notice review process. Frequently,
        the guidance simply states for a given office: ―Provides technical
        support for the verification of the closure of ITAAC.‖

Training for ITAAC Staff Is Improvised

NRO provides ITAAC training in an improvised fashion as determined by
various managers in headquarters and Region II. OIG discussions with
NRO and Region II management and staff, including NRO’s training
coordinators, revealed that they have not systematically developed
 training in accordance with the training and development policies listed
on the NRC’s internal training Web site. These policies are based on the
Office of Personnel Management’s (OPM) training guidance. OPM/agency
policies call for a training needs assessment to help agency and program
managers identify appropriate subjects and methods for training.

OPM’s direction for identifying agency training needs consists of a
three-stage process that begins with an organizational assessment. The
organizational assessment can be used to determine what skills,
knowledge, and abilities an agency needs. Agency staff should then
conduct an occupational assessment to identify the skills, knowledge, and
abilities required for various staff. In the last stage, individual assessments
are conducted to evaluate individual employee capabilities and whether or
not additional training is required in order to do new or different work.
Implementing a formal approach to training would greatly improve the
range and consistency of knowledge on the part of NRO and Region II staff
regarding their roles and responsibilities in the context of the overall ITAAC
process.



                                   11
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



Shortcomings in Existing Guidance Could Hinder Staff Efforts During
ITAAC Closure Process

Inconsistent staff knowledge and understanding of the ITAAC inspection
and closure processes, combined with ad hoc training practices, hinder the
staff’s ability to identify and conduct relevant ITAAC inspections and
closure notice reviews. This, in turn, could negatively impact NRC’s ability
to provide reasonable assurance that a facility has been constructed and
will be operated in conformity with the license, the provisions of the Atomic
Energy Act, and applicable Commission rules and regulations. For
example, a lack of formal guidance related to the Strategy Documents
could result in inconsistent application—or even misinterpretation—of
existing guidance. Furthermore, as the documents are not formally
controlled, there is currently no process to ensure that staff are using the
most up-to-date versions of the Strategy Documents. This could potentially
lead to inconsistencies in inspections, resulting in possible licensee
perception of disparate treatment and might also negatively affect the
Commission’s ability to appropriately make a 10 CFR Part 52.103(g)
finding.

During the ITAAC closure review process, there is potential for rushed
closure reviews resulting from misperceptions associated with the length of
time needed (e.g., 2-4 hours) to complete a review with limited resources.
Confusion regarding the time needed to conduct reviews could potentially
contribute to a loss of reasonable assurance that plants will be built
according to established rules and regulations as a result of rushed or
inadequate closure reviews.




                                   12
         Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



Recommendations

OIG recommends that the Executive Director for Operations:

      1. Develop formal guidelines governing the use of Strategy
         Documents in the context of construction inspection.

      2. Specify procedures for updating Strategy Documents and
         communicating changes in a systematic and coordinated
         fashion.

      3. Provide specific guidance for inspection of non-targeted ITAAC
         and clarify the specific roles and responsibilities of various
         stakeholders during ITAAC closure notification review.

      4. Develop and deliver training for the ITAAC process based on the
         results of needs assessments.




                                  13
                          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



       B.     Development and Implementation of CIPIMS Has Been Delayed

              CIPIMS is a necessary tool to document all ITAAC and vendor inspections,
              inform the agency’s ITAAC closure notice review, and support the
              Commission in making informed findings for permitting licensees to load
              fuel into a newly constructed reactor. However, CIPIMS was not available
              when ITAAC-related construction activities were begun at Vogtle, Georgia,
              in March 2010.7 While CIPIMS was officially deployed in January, 2012,
              just prior to NRC’s approval of the Vogtle COL on February 10, 2012, two
              software updates were already planned through the end of the fiscal year.
              Delays associated with the development and deployment of CIPIMS
              occurred due to insufficient oversight of database development.
              Consequently, NRC has spent approximately $2 million, some of which
              cannot be accurately accounted for, over a period of 5 years without
              developing a fully functional database for the ITAAC closure process.
              Additional delays and inaccurate accounting are likely to continue.

              CIPIMS Is Needed To Track ITAAC Inspection Activity

              NRC has been developing CIPIMS to document inspection items and
              report the results of ITAAC-related and vendor inspections. CIPIMS will be
              used to collect inspection data from multiple sources (e.g., inspection and
              construction schedules) and generate reports. It will also provide critical
              database support in the planning, execution, reporting, and reviewing of
              ITAAC inspections. In the ITAAC closure notification reviews, CIPIMS will
              be used by the agency as one means to verify that the prescribed
              inspections, tests, and analyses in the ITAAC were performed and that the
              acceptance criteria were satisfied. Thus, CIPIMS plays a critical role in
              NRC providing reasonable assurance of the safety and security of new
              reactors. In particular, the information collected in CIPIMS will be critical to
              NRC’s ability to verify ITAAC closure, which will provide the basis for the
              Commission’s 10 CFR Part 52.103(g) finding.




7
 Located near Augusta, Georgia, Southern Nuclear Company has begun construction on two AP1000
Pressurized Water Reactors that are designated as Vogtle, Units 3 & 4.

                                                   14
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



CIPIMS Was Not Available When First Needed and Remains Less than
Fully Operational

CIPIMS was not available when ITAAC-related construction activities were
initiated at Vogtle in March, 2010. CIPIMS development began in 2006
with the creation of what the staff refers to as the ―CIPIMS Prototype‖ and
legacy systems. CIPIMS 2.0 was implemented in January, 2012, nearly 5
years after initial development efforts commenced. Even after deployment
of the current version, the agency is planning to implement future versions
of CIPIMS that include additional system information and system
capabilities.


Insufficient Oversight of CIPIMS System Development

NRO has not consistently applied the policies, principles, and best
practices prescribed and endorsed by Federal guidelines and agency
policy for systems development and investment management. Specifically,
NRO did not provide consistent oversight, quality control, and executive
review of the CIPIMS project to ensure that it has been developed and
implemented in a well-managed and systematic manner. This lack of
consistent oversight is exemplified by NRO’s not appointing a single project
manager thoroughly familiar with all aspects of the agency’s Project
Management Methodology.

Staff Not Familiar with Aspects of Project Management Methodology

In accordance with Federal and agency regulations, the agency’s
information technology capital investments are subject to the requirements
of the agency’s prescribed Project Management Methodology. However,
OIG noted during the audit that NRC staff involved in the oversight of the
CIPIMS project were unable to identify the tier designation of the
information system—a central aspect of the Project Management
Methodology. This lack of familiarity was evident in the staff’s inability to
accurately identify the tier of the system and the corresponding artifacts or
provide artifacts when requested by OIG.




                                   15
           Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



NRC staff were unfamiliar with the tier designation (see text box, ―Project
Management Methodology Tier Designations‖) of the current CIPIMS
system. For example, during a demonstration of the CIPIMS 2.0 database,
OIG inquired of one of the designated project managers what tier the
system was assigned.
The project manager              Project Management Methodology Tier
could not provide a              Designations
definitive answer and
                                 In accordance with agency requirements,
deferred to the Office of
                                 information technology systems are to be
Information Services             designated by the agency as Tier 1, Tier 2, or Tier 3
(OIS) contractor who             based on several factors, including the complexity of
stated that the database         the system, security requirements, and projected
was categorized as Tier          development cost. The tier designation is significant
                                 as it guides the development and implementation of
1 because CIPIMS 2.0 is
                                 the system. Additionally, it determines the
being developed under            requirements that must be addressed to ensure that
the Enterprise Project           the system is appropriately and systematically
Management contract.             managed. Consequently, it is expected that the
OIG noted that the type          project manager of an information technology
                                 system should be familiar with the appropriate tier
of contract under which
                                 designation and the associated requirements.
a system is being
developed is not a factor in determining the tier designation.
Consequently, OIG has concluded that because staff is not familiar with the
tier of the CIPIMS system, the associated required artifacts (see text box,
―Project Management Methodology Artifacts‖) are not likely to be
consistently addressed.


To gain a better understanding of how NRO addressed Project
Management Methodology requirements (artifacts), OIG requested
pertinent CIPIMS
project planning and
                               Project Management Methodology Artifacts
management
documents from NRO             The tier-specific requirements are referred to as
early in the audit. After      ―artifacts‖ and include documentation such as a
several weeks, OIG was         project plan, system requirements, and a risk
                               assessment. Depending on the tier designation,
provided with a project
                               certain artifacts are required while others are
organizational chart           considered optional. There are a significant number
(see Figure 3), the            of artifacts that are required for a Tier 1 system.
CIPIMS System                  See Appendix A.
Requirements
Specifications, and an incomplete project plan. OIG issued a second

                                    16
                           Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



               request for information; however, the agency provided no additional
               documentation. Based on the information that was provided, OIG
               determined that the required artifacts for a Tier 1 system were not being
               appropriately maintained by NRO. In fact, NRO had only addressed some
               of the required artifacts and they were not consistently managed.
               Consequently, OIG concluded that the prolonged development and
               unaccounted costs associated with CIPIMS were, in part, a direct result of
               staff’s lack of familiarity with the requirements of the Project Management
               Methodology.

               Figure 3: NRO CIPIMS Project Team Organization as of August 3, 2011




                             8
               Source: NRC




8
 CCI (Center for Construction Inspection); CIPB (Construction Inspection Program Branch); DCI (Division
of Construction Inspection); DCIP (Division of Construction Inspection and Operational Programs); DCP
(Division of Construction Projects); DNRL (Division of New Reactor Licensing); EPM (Enterprise Project
Management); NOEP (Organizational Effectiveness and Productivity Branch)

                                                    17
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process




Lack of Clearly Designated Project Manager

A project manager plays a significant role in overseeing a project and is
responsible for the planning, controlling, and monitoring of the project.
However, during CIPIMS development there was not a clearly designated
single project manager to oversee the CIPIMS project and coordinate staff
and system end-user input. Specifically, during the course of the audit,
staff could not consistently identify a single project manager for CIPIMS
and noted there were ―multiple project managers‖ overseeing the project
that were located both in Region II and headquarters. Further, not having a
clearly designated project manager to coordinate input made participating
in developing the CIPIMS database difficult. This contributed to a general
confusion within the agency as to who was responsible for overseeing the
CIPIMS project, as indicated previously in Figure 3.

Delays and Unaccounted Costs in CIPIMS System Development

The lack of adequate project oversight has contributed to CIPIMS
development delays. Moreover, during a prolonged period of time, the
agency did not consistently or appropriately track and verify the costs
associated with the development of the database as required by Federal
and agency guidance. Consequently, NRC has spent approximately $2
million, with some expenditures lacking in supporting cost details, over a
period of 5 years. Although inspectors started using CIPIMS at the end of
January 2012, the database is still being updated and was not yet a fully
functional database for the ITAAC closure process.

Prolonged Delays

NRC’s CIPIMS database has been in development for a prolonged period
of time. Specifically, the development of CIPIMS began in 2006 with the
creation of what the staff refers to as the ―CIPIMS Prototype‖ and legacy
systems. In January, 2012, CIPIMS 2.0 was implemented nearly 5 years
after initial development efforts commenced. OIG has recently learned that
the agency is planning to implement future versions of CIPIMS that include
additional system information and system capabilities.




                                   18
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



Staff involved in the development of CIPIMS attributed the developmental
delays to a variety of factors involving the coordination of regional and
headquarters staff. For example, staff noted that poor communication
between Region II and headquarters, ―chronic IT issues,‖ disagreement
over system requirements and platforms, and differing expectations all
contributed to the lengthy delay in developing and implementing a usable
ITAAC database. Most notably, one staff member stated that at various
phases of development it appeared that the ―politics and management
issues within [the Division of Construction Inspection and Operational
Programs],‖ were impeding the progress of the project. Together, these
factors effectively retarded the progress of CIPIMS development and
significantly increased the cost of developing the database.

Development Costs Tracking Issues

The agency could not provide sufficient information documenting the
development costs for the CIPIMS database. The documentation the
agency provided was incomplete and inconsistent, and was analogous to
summary data and cost estimates. For example, in some instances the
agency provided a spreadsheet of approximated costs without any
supporting documentation, such as invoices or signed contractor
timesheets. As a result, OIG could not independently verify the CIPIMS
development costs cited by the agency. The agency’s inability to
appropriately track CIPIMS development costs is evident in how CIPIMS-
related invoices are processed and reconciled to the provisions of the
Enterprise Project Management contract. Table 1 illustrates the various
iterations of the CIPIMS database, including the associated development
activities and costs.




                                   19
                          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



               Table 1: CIPIMS Development Timetable and Estimated Costs
Years             CIPIMS System            Development History        Estimated
                                                                         Cost
2007-08            CIPIMS Legacy                           Developed in NRR;               $275,000
                                                           Based on RPS
                                                           Developed under
                                                           Lockheed Martin
                                                           Contract
2008-09            CIPIMS Legacy                           Work continued by NRO           $415,250
                                                           Developed under
                                                           Lockheed Martin
                                                           contract
2008-11            CIPIMS 1.0 Development                  Migrated from RPS               $942,550
                   & Operations and                        Legacy System to
                   Maintenance                             Microsoft application
                                                           Attempted
                                                           implementation during
                                                           17-month period
                                                           Developed under the
                                                           EPM contract
2009-11            CIPIMS Lite                             Region II developed             $0 (Cost
                                                           stop-gap system based           included as part
                                                           on Microsoft Access™ in         of staff TAC
                                                           absence of functioning          code.)
                                                           CIPIMS
2011-12            CIPIMS 2.0                              Major overhaul and              $394,560 plus
                                                           redesign of system.             an added
                                                           Developed under EPM             $450,000
                                                           contract                        (estimate) for
                                                           Operational as of               latest work up to
                                                           January 9, 2012, while          present
                                                           additions and upgrade
                                                           work continues
                                                                                           Total:
                                                                                           $2,477,360
Source: OIG analysis of NRC data as of January, 2012
Note: EPM is the abbreviation for Enterprise Project Management; RPS is the abbreviation for Reactor
Program System; NRR is the abbreviation for Office of Nuclear Reactor Regulation




                                                   20
                            Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                Invoice Processing Inconsistencies

                According to NRO staff, CIPIMS 1.0 and 2.0 were developed under the
                agency’s Enterprise Project Management contract and are currently co-
                managed by NRO and OIS.9 Under this arrangement, NRO provides daily
                oversight of the contractor and manages the development of the CIPIMS
                database while OIS is charged with disbursing payment on behalf of NRO
                for the services rendered by the contractor under the Enterprise Project
                Management contract. According to one staff member, the arrangement
                between NRO and OIS did not allow the NRO project manager to be fully
                involved in reviewing the development costs associated with CIPIMS. For
                example, an NRO staff member with project manager experience noted
                that under the Enterprise Project Management contract only OIS receives
                invoices from the contractor and that these invoices are not routinely
                forwarded to the NRO project manager for review. The NRO staff member
                indicated that—although they are responsible for the day-to-day oversight
                of the CIPIMS project, including overseeing the contractor—the entire
                invoicing process is controlled by OIS. The individual characterized this
                arrangement as ―a disaster.‖ OIG has identified in previous audits that cost
                tracking for information technology systems has been a problem within the
                agency.10




9
  NRC’s Enterprise Project Management tool is a Microsoft product that helps organizations manage
capital projects by providing a framework for scheduling, tracking, and updating projects that help to
optimize resources, minimize costs, manage scope, and deliver on time. NRO currently uses Enterprise
Project Management to electronically support the agency’s Licensing Program Plan through Microsoft
Project™, Project Web Access™, and the SharePoint™ tools.
10
   See, for example, ―Results of the Audit of the United States Nuclear Regulatory Commission’s Financial
Statements for Fiscal Years 2005 and 2004,‖ OIG-06-A-01, November 10, 2005.

                                                     21
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



Lack of Clarity in Enterprise Project Management Contract Task Orders

The Enterprise Project Management contract is broadly written and did not
always contain language specific to the development of the CIPIMS
database. Specifically, the initial Enterprise Project Management contract
contained task orders that were generically worded and provided only
broad categorizations of the types of operations and maintenance activities
allowable under the contract. A task order did not exist that was specific to
CIPIMS development, making it unclear which task orders were to be used
to track the costs associated with development of the database. Contract
and project manager staff explained that CIPIMS-related work could be
charged under multiple task orders depending on the type of work being
performed. OIG questioned whether it was possible for staff to account for
CIPIMS development costs if multiple task orders were being inconsistently
utilized. In effect, actual costs could not be tracked and OIG could not
separate CIPIMS work from that charged to the generalized task orders.
Shortly after OIG raised this issue, the Enterprise Project Management
contract was modified to include a CIPIMS-specific task order.


Recommendations

OIG recommends the Executive Director for Operations:

      5. Designate a specific Project Manager for CIPIMS as required by
         the Project Management Methodology.

      6. Develop and maintain project artifacts for CIPIMS as required in
         the Project Management Methodology.




                                   22
               Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



C.   A Formal Strategy for Inspection of Components at Modular
     Assembly Facilities Would Strengthen the ITAAC Inspection Program

     The extent to which NRC’s inspection activities for components
     manufactured and assembled offsite are sufficient for ITAAC verification is
     unclear. This is because NRC has not developed a formal strategy for
     evaluating what inspections are necessary at modular assembly facilities
     located away from the plant construction site. Consequently, NRC may not
     be able to provide reasonable assurance that new nuclear plants are
     constructed in accordance with NRC requirements.

     Importance of ITAAC Construction Oversight and Inspection

     NRO and Region II’s Center for Construction Inspection construction
     oversight programs are intended to enable the safe and secure
     construction of nuclear reactors in accordance with approved designs and
     safety regulations. NRO’s Division of Construction Inspection and
     Operational Programs, in conjunction with the Center for Construction
     Inspection, are responsible for overseeing inspections of reactors under
     construction as well as for inspecting structures, systems and components
     that are being assembled off-site. An example of such an off-site facility,
     Shaw Modular Solutions in Lake Charles, Louisiana—which is currently
     providing components to a nuclear power plant construction site located
     834 miles away in Georgia—is shown in Figure 4.


     Figure 4. Shaw Modular Solutions Facility, Lake Charles, Louisiana




     Source: NRC




                                        23
                             Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                 Role of Division of Construction Inspection and Operational Programs

                 NRO’s Division of Construction Inspection and Operational Programs
                 develops policy and provides overall program management and planning
                 for the construction inspection program for new commercial nuclear power
                 plants. Activities include oversight of licensee performance assessment,
                 allegations, and enforcement activities.

                 Role of Region II Center for Construction Inspection

                 Region II’s Center for Construction Inspection conducts oversight activities
                 designed to ensure the safety of future operations at new nuclear facilities
                 by monitoring licensees’ efforts to construct the facilities according to
                 approved design criteria, while using appropriate practices and quality
                 materials. Guidance developed by Region II also addresses the
                 importance of inspecting structures, systems and components that are
                 assembled off-site at modular construction facilities.

                 Importance of Inspecting Components Assembled Off-Site

                 Strategy Documents, developed by Region II, provide detailed guidance to
                 construction inspectors for pre-inspection planning activities. These
                 documents also address the role of vendor inspections. For example,
                 Strategy Documents associated with the pipe welding and
                 supports/restraint ITAAC specifies that some pipe segments, pipe
                 supports, and restraints will be fabricated off-site at modular fabrication or
                 vendor fabrication sites.11 NRC Strategy Documents note that there is the
                 possibility NRC will be required to inspect some items ―at the manufacturer‖
                 rather than after arrival at the construction site, which would also require
                 Region II construction inspectors to coordinate with NRO vendor
                 inspectors. As shown in Figure 5, many modular assemblies are complex
                 in nature and the need for careful inspection planning is important.
                 Therefore, ITAAC inspections should be coordinated with vendor
                 inspections connected with modular fabrication facilities.




11
     Appendix B provides examples of ITAAC.

                                                      24
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



Figure 5: Installation of Modular Assemblies




Source: NRC


NRC’s Approach to Inspection of Modular Assembly Facilities Not
Fully Evaluated

There is currently no assurance that NRC’s inspection activities for
components manufactured and assembled offsite as part of modular
assemblies are sufficient for ITAAC verification based on NRC’s ability to
inspect them. OIG reached this conclusion after inquiring of staff the extent
to which resident inspectors would be needed at modular assembly
facilities, and how vendor inspections would be factored into the ITAAC
review process. Although NRC has taken initial steps to identify targeted
ITAAC that can be inspected at modular assembly facilities, NRC still does
not have formal documentation that outlines a comprehensive strategy for
the inspection of modular assembly facilities.




                                   25
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



NRC’s Approach to Modular Assembly Inspection Could be
Strengthened

NRC has not developed a formal strategy for evaluating what inspections
at modular assembly facilities are necessary to support the ITAAC
program. That is, staff are making decisions without the benefit of a
structured and systematic evaluation to determine what systems, structures
and components assembled or manufactured off-site need to be inspected
prior to arrival at the construction site in support of the ITAAC closure
process.

For example, during the audit, OIG observed NRC management and
inspection staff at a meeting with vendor staff at Shaw Modular Solutions.
The site visit was intended, in part, to help NRC staff better understand
how the modular assembly facility fit into the overall inspection scheme for
new construction inspections. After the visit, NRC staff still had
unanswered questions regarding access to vendor data, the off-site
assembly construction schedules, and even the precise make-up of some
of the assemblies. Though NRC has taken initial steps to identify ITAAC
that could be inspected at modular assembly facilities through updated
procedures in the Strategy Documents, NRC has not developed a formal
strategy to identify targeted and non-targeted ITAAC that could require
some degree of inspection prior to arrival at a construction site.

Role of the Vendor Inspection Program Not Formalized

NRC has not fully determined how the NRO vendor inspection program
should be integrated into NRC’s overall ITAAC oversight activities. The
vendor inspection program is an important part of the overall inspection
process. Senior headquarters and regional staff stated that vendor
inspections inform ITAAC. OIG noted that NRO has taken preliminary
action to address the role of vendor inspections with respect to ITAAC
inspections. Precisely how vendor inspections inform ITAAC inspections is
not clear, however, and neither senior regional nor headquarters managers
could articulate how this is being accomplished. OIG also learned that
Region II construction inspection staff are relying, in part, on NRO vendor
inspectors to inform Region II of any findings related to ITAAC that they
identify during vendor and modular facility inspections.




                                   26
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



To help understand the role of vendor inspectors in the ITAAC oversight
process, OIG requested documentation reflecting a staff analysis of the
role of vendor inspections in ITAAC-related oversight activities. NRC staff
stated that no such analysis was conducted and, thus, no formal strategy
for integrating and coordinating vendor inspections has been developed.
As one senior NRO program staff member told OIG, from the standpoint of
the vendor inspection program, the ITAAC inspections are considered as a
"bonus" and not a necessity.

Figure 6: NRC Vendor Inspection Team at Shaw Modular Solutions
Facility




Source: NRC


Opportunities To Identify Safety-Significant ITAAC Problems May Be
Missed


Without a formal strategy to guide the evaluation of modular components
and to delineate the role of vendor inspectors in the ITAAC oversight
process, the agency may be missing opportunities to identify safety-
significant problems. Specifically, opportunities for detecting safety-
significant issues relating to targeted ITAAC during new reactor
construction may be limited. The role of modular construction and vendor
inspections is vitally important, in part because vendors—such as Shaw
Modular Solutions—have already been assembling safety-related
components destined for use at new reactor construction sites. Region II


                                   27
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



staff acknowledged that some components would have to be inspected at
Shaw Modular Solutions, or they might not be visible upon arrival onsite.

For example, certain modular assemblies have welding that, once
assembled, would be inaccessible to resident inspectors when the module
arrived on-site, which could prevent an accurate evaluation of a given
ITAAC. Furthermore, both ITAAC and vendor inspection teams may be
missing opportunities to identify problems early on and communicate them
in a timely manner to those resident inspectors who can best make use of
the information. For example, during meetings at Shaw Modular Solutions,
licensee representatives revealed that some modular assembly activity was
going on at sites other than Lake Charles. However, NRC staff were not
aware of the activity and were not informed through vendor inspections.
Without the full details of what is being assembled at locations other than
the construction site, NRC may not be able to reasonably assure that the
plant is being built in accordance with its license, the provisions of the
Atomic Energy Act, and the Commission’s rules and regulations.


Recommendations

OIG recommends that the Executive Director for Operations:

      7. Determine what systems, structures and components assembled
         or manufactured off-site need to be inspected prior to arrival at
         the construction site in support of the ITAAC closure process.

      8. Develop a formal vendor inspection coordination strategy to
         ensure appropriate inspections of modular systems, structures
         and components assembled or manufactured off-site.




                                   28
               Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



D. Coordination Between Headquarters and Region II Could Be Improved

     There is a lack of sustained coordination both within headquarters and
     between headquarters and Region II for ITAAC program related activities
     and interactions. These problems would have been minimized if NRO and
     Region II had in place formalized change management processes to
     address communications and coordination problems in a changing
     environment. Without a formalized change management process,
     coordination and communication concerns between NRO and Region II will
     continue to proliferate, with the potential to affect the agency’s safety
     mission.

     The Importance of Coordination and Communication to Program
     Success

     Key agency guidance documents note the importance of employing
     effective business methods—such as sustained coordination and clear
     communication—to achieve and maintain operational excellence. For
     example, the agency’s current Strategic Plan references coordination and
     communication as effective business methods. Change management, in
     particular, is vital to enhancing an organization’s effectiveness and
     efficiency. Key aspects of change management include realizing the need
     for increased training and systematically documenting new procedures to
     assist staff throughout the transition process. Furthermore, NRO’s internal
     guidance documents note the key role that interdependence and
     coordination play in its ability to effectively attain its mission. For example,
     in NRO Vision of Success, NRO recognizes the importance of
     interdependent relationships within the agency, and the subsequent need
     for clearly delineating roles and responsibilities. Additionally, the Division
     of Construction Inspection and Operational Programs Web page states its
     approach to the oversight of new reactor construction is based on
     coordination between and within headquarters and Region II.

     Management best practices also acknowledge the significant impact
     coordination has on an organization’s ability to attain its goals. According
     to recognized management best practices, ―…the goal of the enterprise
     cannot be successfully obtained without it [coordination].‖ Management
     best practice states that effective coordination includes sound planning, a
     clear delineation of responsibility, and effective communication within an
     organization. Furthermore, recognized management best practices

                                        29
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



emphasize change management as entailing thoughtful planning, sensitive
implementation of change, and consultation with, and involvement of, the
people affected by the changes. An organization’s management is
responsible for facilitating and enabling change by preparing staff to
understand the purpose of the change. This requires management to
effectively communicate and involve staff early on in the process to
facilitate a sentiment of trust and openness. Management must clearly
articulate to affected staff what their role is in facilitating the change,
including the new roles and responsibilities they will be expected to perform
and how they will interact with other entities within the organization.
Furthermore, management is responsible for identifying potential barriers to
change and developing plans to address them, in addition to providing a
systematic transition plan and schedule to guide the organizational change.


Lack of Sustained Coordination and Communication Hinders ITAAC
Process

During OIG’s review of NRC’s ITAAC oversight process, development of
CIPIMS, and oversight of modular components constructed and assembled
offsite, auditors noted a lack of sustained coordination between
headquarters and Region II staff. Specifically, OIG observed a lack of
sustained coordination during the development and revision of ITAAC
guidance documents, the creation of the CIPIMS database, and the
interaction between the vendor inspection and ITAAC programs.

ITAAC Closure Guidance

There is inconsistent coordination between headquarters and regional staff
in the development and revision of ITAAC-related guidance and
procedures. Specifically, the process by which the ITAAC Strategy
Documents are revised is informal, occurs on an irregular basis, and does
not lend itself to broad staff participation. During the audit, OIG learned
that revisions to the Strategy Documents are managed via a limited-access
Region II Microsoft SharePoint™ site. Furthermore, the revision process is
not formalized and occurs on a sporadic, ad hoc basis. Staff also
expressed significant concern that there did not seem to be any formal
method for submitting changes to the Strategy Documents, which were
essentially overseen by a single point of contact and not subject to an
objective vetting process.


                                   30
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process




Development of CIPIMS Database

The development and implementation of CIPIMS has been lengthy and
characterized by inadequate coordination at various levels within and
between headquarters and regional staff. This lack of coordination
occurred throughout the development of all iterations of CIPIMS, but was
most apparent in the development of pre-CIPIMS 2.0 variants. Specifically,
there was a lack of coordination in how the differing priorities, system
change requests, and user needs were managed during the database’s
development.

          Differing Priorities Hampered Coordination. Coordination
          between headquarters and Region II during various phases in
          the development of the CIPIMS 1.0 database was hampered,
          according to staff, as a result of the shifting priorities at
          headquarters and Region II that were driven by resource and
          staff availability issues.
          System Change Requests Not Coordinated. The manner in
          which system change requests were managed illustrates a lack
          of coordination during CIPIMS development. Specifically, there
          was no formal process for submitting, evaluating and
          implementing the system change requests proposed by staff.
          User Needs Were Not Sufficiently Coordinated. Both Region II
          and headquarters staff agree that communication was lacking
          and often led to additional confusion. In some cases,
          headquarters and regional staff indicated that they felt their input
          was not being adequately taken into account.
          Management Efforts to Address Coordination and
          Communications Issues. During the course of OIG’s audit, NRO
          managers and staff began taking steps to employ a more
          systematic approach toward the development and
          implementation of the CIPIMS 2.0 database. For example, an
          NRO staff member involved with CIPIMS told OIG that a
          formalized change request management system has been
          implemented for CIPIMS 2.0. This includes taking steps to
          ensure that user needs and requirements are identified and met
          through implementing a more formalized communication
          mechanism.



                                   31
                            Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process




                Interaction of the Vendor Inspection and ITAAC Programs

                There is limited coordination between the NRO’s vendor inspection
                program and Region II’s Center for Construction Inspection despite their
                interdependent inspection activities. Specifically, communication between
                the organizations is informal and occurs inconsistently. For example, staff
                noted that information sharing primarily occurs via e-mail or word-of-mouth
                on an irregular basis. Additionally, OIG found evidence that although NRC
                is aware of coordination issues, there is not yet in place a formal process
                for how NRC plans to coordinate construction and vendor inspections
                involving modular assembly facilities. For example, ITAAC inspection staff
                have noted their reliance on the results of the vendor inspections to better
                inform ongoing and future ITAAC inspection work. In contrast, an NRO
                senior manager stated that conducting any work involving or relating to
                ITAAC is a ―bonus,‖ thereby implying that the ITAAC process is not
                routinely considered in the conduct of vendor inspections.12

                NRO and Region II managers have identified this issue as an impediment
                to the efficacy of both the ITAAC and the vendor inspection programs. As
                a result, according to NRO management, they are taking steps to ensure
                that the coordination between the programs is strengthened by defining a
                formalized means of communication and developing clearly written
                guidance that addresses the expectations regarding interaction, and
                identifies the specific roles and responsibilities of each program.

                Change Management Process Not Employed

                Communication and coordination problems would have been minimized if
                NRO and Region II had in place formalized change management
                processes to mitigate barriers to change in a dynamic environment. A
                senior NRO manager indicated that they were unaware if any change
                management process had been used to facilitate the most recent NRO
                office reorganization performed in late 2011. During discussions with OIG,
12
  Nor did it appear that ITAAC were specifically considered during NRC’s vendor inspection of Shaw
Modular Solutions in November 2011. The resulting inspection report (Inspection Report No.
99901401/2011-202) does not mention ITAAC. This is due, in part, to the traditional role of vendor
inspections to review the vendor’s compliance with 10 CFR Part 50, Appendix B ―Quality Assurance
Criteria for Nuclear Power Plants and Fuel Reprocessing Plants.‖ Given such a restricted inspection
focus, anything specific that the vendor inspection team might find regarding an individual ITAAC appears
unlikely and exceptional and, indeed, might legitimately be characterized as a ―bonus.‖

                                                     32
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



managers and staff cited instances of communication and coordination
problems that were exacerbated by staff turnover. The problems included
communication of inspection-related activity, as well as communication and
coordination associated with the development of CIPIMS. In addition, as
changes to project management occurred, they were not always
communicated or coordinated effectively to staff, leading to what one NRO
manager characterized as having to start things all over again.

Continued Coordination Problems May Affect Safety Mission

Given the changing budget and regulatory environment, it is prudent to
assume NRC may undergo further change. Some of this change may be a
result of the projected development and licensing of new reactors, including
small modular and other advanced reactors, ongoing license renewals, as
well as the natural evolution and revision of the agency’s regulations in
response to external events. Without an effective change management
program in place, continued problems with coordination and
communication can be expected to continue to adversely affect the ITAAC
process and the degree to which new plants are safely constructed.


Recommendations

OIG recommends that the Executive Director for Operations:

     9.   Develop a plan to correct the existing communication and
          coordination problems between headquarters and Region II that
          resulted from lack of a change management process for ITAAC-
          related issues.

     10. Develop and implement a change management process to
         address future change in the ITAAC process that can create
         barriers to effective communication and coordination.




                                   33
                    Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

    OIG recommends that the Executive Director for Operations:

          1.   Develop formal guidelines governing the use of Strategy Documents
               in the context of construction inspection.

          2.   Specify procedures for updating Strategy Documents and
               communicating changes in a systematic and coordinated fashion.

          3.   Provide specific guidance for inspection of non-targeted ITAAC and
               clarify the specific roles and responsibilities of various stakeholders
               during ITAAC closure notification review.

          4.   Develop and deliver training for the ITAAC process based on the
               results of needs assessments.

          5.   Designate a specific project manager for CIPIMS as required by the
               Project Management Methodology.

          6.   Develop and maintain project artifacts for CIPIMS as required in the
               Project Management Methodology.

          7.   Determine what systems, structures and components assembled or
               manufactured off-site need to be inspected prior to arrival at the
               construction site in support of the ITAAC closure process.

          8.   Develop a formal vendor inspection coordination strategy to ensure
               appropriate inspections of modular systems, structures and
               components assembled or manufactured off-site.

          9.   Develop a plan to correct the existing communication and
               coordination problems between headquarters and Region II that
               resulted from lack of a change management process for ITAAC-
               related issues.




                                             34
                   Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



         10. Develop and implement a change management process to address
             future change in the ITAAC process that can create barriers to
             effective communication and coordination.



V. AGENCY COMMENTS

   On May 9, 2012, the Office of the Inspector General (OIG) issued the discussion
   draft of this report to the Executive Director for Operations. OIG met with NRC
   management officials and staff on May 22, 2012, at which time the agency
   provided informal comments to the draft report. OIG subsequently met with
   agency management and staff during a May 30, 2012, exit conference to discuss
   agency informal comments that OIG incorporated into the draft report as
   appropriate. NRC management and staff reviewed the revised draft report and
   generally agreed with the recommendations in this report. Furthermore, the
   agency opted not to provide formal comments for inclusion in this report.




                                            35
                              Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                                                                                                   Appendix A

Example of Tier 1 Project Management Methodology Artifacts


                             PMM Project Management Artifacts                                            T1*
        Transmittal Memorandum
        Vision Document                                                                                   R


        Business Case
        (The Business Case Package includes the following:

        Transmittal Memorandum
        Vision Document
        Executive Summary
                                                                                                          R
        System Requirements Specification
        Business Case
        Project Management Plan
        System Architecture Document and
        Security Categorization Package)


        Project Management Plan
                                                                                                          R
        (Project Schedule, Budget/Cost, Quality Assurance Plan, etc).
        Project Schedule

                                                                                                          R
        Project Schedule Templates


        Software Development Plan Template (if outsourced; includes schedule,
                                                                                                          R
        and other supporting management approaches)
        Risk/Issues List                                                                                  R
Source: NRC                                *T1 = Tier 1 Project;                 R = Required by PMM
Note: OIG requested documentation from NRO staff to provide support that required Tier 1 artifacts had been
addressed during the development of CIPIMS. To date, OIG has received no documentation that provides sufficient
evidence that Tier 1 artifacts were appropriately addressed.




                                                       36
                         Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                                                                                               Appendix B

Examples of ITAAC

     Design                        Inspection, Test and/or                    Acceptance
     Commitment                    Analyses                                   Criteria

1. The Remote Manual           The Remote Manual and                     The gripper will not
and Fuel Handling              Fuel Handling Mechanism                   open while
Mechanism gripper              will be tested by operating               suspending a dummy
assemblies are designed        the open controls of the                  test assembly.
to prevent opening while       gripper while suspending a
the weight of the fuel         dummy fuel assembly.
assembly is suspended
from the gripper.
2. Pressure boundary           Inspection of the as-built                A report exists and
welds in components            pressure boundary welds will              concludes that ASME
identified in Table 2.1.3-1    be performed in accordance                Code Section III
as American Society of         with ASME Code Section III.               requirements are met
Mechanical Engineers                                                     for Non-destructive
(ASME) Code Section III                                                  examination of
meet ASME Code Section                                                   pressure boundary
III.                                                                     welds.
Source: NRC

This chart contains two examples of ITAAC. The first example (row 1) is a simple ITAAC and
involves verifying whether the gripper of the fuel handling mechanism functions properly through
visual inspection. The second example (row 2) is a complex ITAAC and involves examining
welds in components located on the reactors’ pressure boundary to determine conformance to
ASME code requirements.




                                                  37
                  Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



                                                                                       Appendix C


OBJECTIVE, SCOPE, AND METHODOLOGY


        OBJECTIVE

        The audit objective was to assess NRC’s regulatory approach, through the
        ITAAC review process, to ensure that new nuclear power plants have been
        constructed and will be operated in conformity with the license, the
        provisions of the Atomic Energy Act, and the Commission’s rules and
        regulations.

        SCOPE

        The audit focused on assessing NRC’s ITAAC inspections and evaluations
        associated with the ITAAC closure process. The audit reviewed current
        agency guidance and practices pertinent to ITAAC, and also included a
        review of Federal regulations and agency policies regarding new
        information technology projects.

        We conducted this performance audit at NRC headquarters (Rockville,
        Maryland) from April 2011 through January 2012. The audit also included
        site visits to Region II offices in Atlanta, Georgia; the Vogtle Electric
        Generating Plant construction site in Waynesboro, Georgia; and Shaw
        Modular Solutions modular assembly facility in Lake Charles, Louisiana.
        Internal controls related to the audit objective were reviewed and analyzed.
        Throughout the audit, auditors were aware of the possibility or existence of
        fraud, waste, or misuse in the program.

        METHODOLOGY

        OIG reviewed Federal regulations and agency guidance regarding the
        ITAAC inspection and closure process and new information technology
        projects, including:

                      10 CFR Part 52 – Licenses, Certifications, and Approvals for
                      Nuclear Power Plants.




                                           38
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



              Technical Report on the Prioritization of Inspection
              Resources for Inspections, Tests, Analyses, and Acceptance
              Criteria (ITAAC).
              Proposed Rule: Requirements for Maintenance of
              Inspections, Tests, Analyses, and Acceptance Criteria (RIN
              3150-AI77).
              Inspection Procedure 40600 – Licensee Program for
              Inspections, Tests, Analyses, and Acceptance Criteria
              (ITAAC) Management.
              Inspection Manual Chapter 2506 – ―Construction Reactor
              Oversight Process General Guidance and Basis Document.‖
              Inspection Manual Chapter 2503 – ―Construction Inspection
              Program: Inspections of Inspections, Tests, Analyses, and
              Acceptance Criteria (ITAAC).‖
              AP1000, ITAAC Family 01F, ―Foundations and Building
              Design/Fabrication Requirements Inspection Strategy.”
              NEI 08-01 – Industry Guideline for the ITAAC Closure
              Process Under 10 CFR Part 52, Revision 4, Draft E.
              Simulated ITAAC Closure and Verification Demonstration
              Final Report.
              Office of Management and Budget Circular No. A-130 –
              Management of Federal Information Resources.
              NRC Management Directive 2.8 – Project Management
              Methodology (PMM).

OIG interviewed NRC managers and staff involved in the ITAAC inspection
and closure process. These interviews included an NRO Division Director;
NRO and Region II Branch Chiefs; NRO Project Managers; Resident
Construction Inspectors; and OIS, and Office of the Chief Financial Officer
personnel. Additionally, OIG interviewed Shaw Modular Solutions and
Southern Nuclear Company representatives. Overall, OIG conducted
interviews with the key program and regional representatives necessary to
obtain their insights into the agency’s planning and management of the
ITAAC closure process.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a

                                   39
          Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC) Process



reasonable basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by R. K. Wild, Team Leader; Kevin
Nietmann, Senior Technical Advisor; Jacki Storch, Audit Manager; Timothy
Wilson, Senior Management Analyst; and Larry J. Weglicki, Senior Auditor.




                                   40
